                          AUDIT REPORT


Internal Controls and
Transportation Associated with
the Des Moines, IA, Mail Transport
Equipment Service Center

   April 29, 2014




                    Report Number NO-AR-14-003
                                                                      HIGHLIGHTS
                                                                           April 29, 2014

                                                 Internal Controls and Transportation
                                                  Associated with the Des Moines, IA,
                                            Mail Transport Equipment Service Center

                                                         Report Number NO-AR-14-003

BACKGROUND:                                   instead of ordering them from the Des
The mail transport equipment service          Moines MTESC. These conditions
center (MTESC) network is composed            occurred because the Postal Service did
of 15 contractor-operated centers that        not provide sufficient oversight to ensure
handle, supply, and transport mail            compliance with its policies. Also,
transport equipment (MTE) to mail             facilities were short-staffed and were
processing facilities and U.S. Postal         forced to give processing mail priority
Service customers. The Des Moines, IA,        over managing MTE. Finally, we
MTESC spends about                            identified cancellations and additions of
annually to service 46 Western Area           MTE transportation that occurred
facilities and mailers. Our objective was     because of ongoing operational
to assess internal controls and               changes and realignment of the
dedicated transportation activities           processing network.
associated with the Des Moines
MTESC.                                        We estimate the Postal Service incurred
                                              about $359,000, $708,000, and
WHAT THE OIG FOUND:                           $204,000 in unnecessary costs in fiscal
The Postal Service needs to improve           years 2012, 2013, and 2014,
controls over MTE operations and              respectively, and could avoid about
transportation at the Des Moines              $636,000 annually over the next 2 years
MTESC and its processing facilities.          by providing adequate oversight and
Management did not adequately control         ensuring compliance with policies.
contractor processing, invoicing,
repairing, and handling of MTE;               WHAT THE OIG RECOMMENDED:
adequately monitor contractor                 We recommended the vice presidents,
performance; and always secure its            Network Operations and Supply
operations. In addition, facilities were      Management, establish adequate
not complying with MTE policies by            controls over contractor performance
sending non-MTE, such as shoring              and ensure MTE is protected. We also
straps, to the MTESC. Some facilities         recommended the vice president,
were not inspecting MTE for mail before       Western Area, ensure compliance with
sending it to the Des Moines MTESC,           MTE policies for proper ordering,
which could cause delayed or                  handling, and transporting of MTE; and
undelivered mail.                             reassess MTE and transportation
                                              requirements to ensure efficiency.
We also found some facilities were
purchasing cardboard containers               Link to review the entire report
April 29, 2014

MEMORANDUM FOR:           DAVID E. WILLIAMS
                          VICE PRESIDENT, NETWORK OPERATIONS

                          SUSAN M. BROWNELL
                          VICE PRESIDENT, SUPPLY MANAGEMENT

                          DREW T. ALIPERTO
                          VICE PRESIDENT, WESTERN AREA OPERATIONS




FROM:                     Robert J. Batta
                          Deputy Assistant Inspector General
                           for Mission Operations

SUBJECT:                  Audit Report – Internal Controls and Transportation
                          Associated with the Des Moines, IA, Mail Transport
                          Equipment Service Center
                          (Report Number NO-AR-14-003)

This report presents the results of our audit of Internal Controls and Transportation
Associated with the Des Moines, IA, Mail Transport Equipment Service Center (Project
Number 13XG007NL001).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact James Ballard, director,
Network Processing and Transportation, or me at 703-248-2100.

Attachment

cc: Corporate Audit and Response Management
Internal Controls and Transportation                                                                               NO-AR-14-003
 Associated with the Des Moines, IA,
 Mail Transport Equipment Service Center




                                            TABLE OF CONTENTS
Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 1

Controls Over Mail Transport Equipment Service Center Contractor and Processing

   Facility Operations ....................................................................................................... 2

Reassessment of Mail Transport Equipment Service Center Transportation

   Requirements............................................................................................................... 7

Recommendations .......................................................................................................... 7

Management’s Comments .............................................................................................. 8

Evaluation of Management’s Comments ......................................................................... 9

Appendix A: Additional Information ............................................................................... 10

   Background ............................................................................................................... 10

   Objective, Scope, and Methodology .......................................................................... 10

   Prior Audit Coverage ................................................................................................. 12

Appendix B: Monetary and Other Impacts..................................................................... 13

Appendix C: Des Moines Mail Transport Equipment Service Center Processing

   Facilities and Mailers.................................................................................................. 17

Appendix D: Mail Transport Equipment Service Center Distribution Flowchart ............. 19

Appendix E: Management’s Comments ........................................................................ 20
Internal Controls and Transportation                                                                  NO-AR-14-003
 Associated with the Des Moines, IA,
 Mail Transport Equipment Service Center



Introduction

This report presents the results of our self-initiated audit of Internal Controls and
Transportation Associated with the Des Moines, IA, Mail Transport Equipment Service
Center (MTESC) (Project Number 13XG007NL001). Our objective was to assess
internal controls and dedicated transportation associated with the Des Moines, IA,
MTESC. This is the second in a series of reports on the MTESC network. See
Appendix A for additional information about this audit.

The MTESC network is a centrally managed system of contractor-operated service
centers designed to supply pallets, tubs, trays, mailbags, and other mail transport
equipment (MTE) to mail processing facilities and large customers (mailers) nationwide.
The MTESC network delivers MTE to U.S. Postal Service processing facilities1 and
mailers with dedicated transportation, recovers MTE that is no longer needed or
serviceable, and processes MTE for inventory and redistribution.

The Des Moines MTESC is in Urbandale, IA, in the Postal Service’s Western Area. The
Des Moines MTESC contractor, Pacific Architects and Engineers (PAE) Applied
Technologies, has operated the facility since July 2012 under a 34-month contract, with
two additional 2-year renewal options. The Des Moines MTESC services 12 Postal
Service processing facilities and 34 mailers in the Western Area, which covers the
Midwestern states (see Appendix D for the MTESC distribution flowchart and additional
information). In fiscal year (FY) 2013, costs for the Des Moines MTESC were about
            for operations and               for dedicated transportation.

While Postal Service Headquarters controls MTESC operations, the Western Area
monitors the dedicated transportation network and manages MTE at processing
facilities. The Postal Service establishes controls and oversees the Des Moines MTESC
contractor and MTE operations and transportation at its associated processing facilities.

Conclusion

The Postal Service could improve controls over MTE operations and transportation at
the Des Moines MTESC and associated processing facilities. We found that
management did not have comprehensive controls over contractor processing,
invoicing, repairing, and handling of MTE; and did not adequately monitor the
contractor's performance. Further, the Des Moines MTESC did not always have
adequate security. In addition, some processing facilities were not complying with MTE
policies and were sending non-MTE – specifically shoring straps, or improperly

1
 Processing facilities receive outgoing mail from designated associate offices, stations, and branches or customer
service facilities for processing and dispatch.

                                                         1
                                              Restricted Information
Internal Controls and Transportation                                                                     NO-AR-14-003
 Associated with the Des Moines, IA,
 Mail Transport Equipment Service Center

prepared plant-processed finished goods (PPFG) – to the Des Moines MTESC. Some
processing facilities were not inspecting MTE for mail before sending it to the Des
Moines MTESC. We also found that some facilities were purchasing new cardboard
instead of ordering it from Des Moines MTESC inventory, where it was available. These
conditions occurred because the Postal Service did not provide sufficient oversight at
the Des Moines MTESC and associated processing facilities to ensure compliance with
its policies and procedures.

Finally, we identified many cancellations and additions of MTE transportation and
determined that management should reassess the efficiency of this transportation in
view of ongoing operational changes and realignment of the processing network.

Because of the inadequate control environment, we estimate the Postal Service
incurred about $359,000, $708,000, and $204,000 in unnecessary costs in FYs 2012,
2013, and 2014, respectively. Further, the Postal Service could avoid about $636,000
annually over the next 2 years. See Appendix B for further details regarding our
monetary impact calculations.

Controls Over Mail Transport Equipment Service Center Contractor and
Processing Facility Operations

The Postal Service does not have comprehensive and effective internal controls in
place over contractor performance or processing facility MTE operations associated
with the Des Moines MTESC.

Insufficient Controls Over Contractor Performance

We found the Des Moines MTESC had insufficient contractor performance controls in
place over the processing, invoicing, repairing, and handling of MTE. We identified the
following concerns and risks that resulted in unnecessary handling and processing
costs.

    There is limited monitoring, tracking, and documenting of the quantity and type of
     MTE received, so a contractor may unnecessarily handle and process MTE at
     additional costs.

    There is inconsistent inspection and approval of MTE repair or condemnation.2
     Consequently, a contractor may improperly classify MTE, resulting in unjustified
     repair and costs.




2
 A product that is so damaged, soiled, or worn that it is classified as “beyond repair” according to Postal Service
criteria for reparability; or an obsolete or unapproved item that is not to be reintroduced into the Postal Service MTE
product stream. Condemned products are sent for disposal or recycling.


                                                            2
Internal Controls and Transportation                                                              NO-AR-14-003
 Associated with the Des Moines, IA,
 Mail Transport Equipment Service Center



    The Postal Service’s



    The Postal Service does not monitor contractor operations during one of the two
     shifts at the Des Moines MTESC, so a contractor may perform unnecessary
     functions.

These conditions occurred because management eliminated many of the previously
assigned positions dedicated to performing the required QA duties at the Des Moines
MTESC, including validating items needing repairs.

Insufficient Security Over Contractor Operations

During our observations of the Des Moines MTESC yard, we found that multiple access
points were left open, with no access control. The yard contained some unlocked
trailers loaded with MTE and trailers were picked up and dropped off during
non-operating hours. The contractor's statement of work (SOW)4 requires that it provide
security and access control to the grounds and trailer parking areas, including access
control of inbound and outbound trailers at all times.

Non-Compliance with MTE Policy and Processes

Postal Service facilities were not fully complying with the MTE return handling policy on
effective management and distribution of MTE. Facilities were not properly preparing
letter trays and tubs before sending them to the Des Moines MTESC. Some facilities
were purchasing cardboard even though there was a significant cardboard inventory at
the Des Moines MTESC. This occurred because management did not have dedicated
resources at the processing facilities for effective MTE management and oversight.
Because they were short-staffed, processing facilities had to prioritize processing mail
over managing MTE.

Unprocessed and Improperly Prepared MTE. There are two main components of the
MTE return handling policy — reuse and redistribution of MTE at processing facilities
and return of excess MTE to the Des Moines MTESC for preparation and dispatch as
PPFG. We found the processing facilities were generally reusing and redistributing MTE
locally to facilities and mailers before sending it to the Des Moines MTESC. However,
processing facilities did not always prepare MTE in accordance with the MTE return
handling policy.

Our analysis of MTE received at the Des Moines MTESC for FY 2013 found that over
50 percent of the trays and tubs received from facilities were improperly palletized.

3
  Part of the Mail Transport Equipment Support System (MTESS), which generates a sample of processed pallets for
the QA specialist to audit and clear.
4
  SOW, Section 3.1.12, Revision 3, Change 13, dated April 30, 2011.


                                                       3
Internal Controls and Transportation                                                                NO-AR-14-003
 Associated with the Des Moines, IA,
 Mail Transport Equipment Service Center

MTE received from other facilities were often placed in cardboard containers or rolling
stock, requiring the Des Moines MTESC to further sort, process, stack, shrink-wrap, and
label MTE at an additional cost to the Postal Service.

We also found facilities that processed and prepared MTE often had PPFG that did not
comply with height requirements, was not sufficiently shrink-wrapped, or was not
properly labeled for tracking tubs and trays dispatched to the Des Moines MTESC.
During our fieldwork, we observed stacks of trays that facilities were sending as PPFG
stacked 70 inches or higher, far exceeding the 45-inch height requirement.

              Figure 1. Improperly Prepared MTE at the Des Moines MTESC




            MTE loaded in cardboard containers               Improperly shrink-wrapped trays, stacked in
            overflowing instead of being palletized,         excess of 70 inches, exceeding the 45-inch
            properly stacked and shrink-wrapped.             height requirements.

            Source: U.S. Postal Service Office of Inspector General (OIG) photographs taken January 8, 2014.

We judgmentally sampled 25 PPFG pallets of trays sent to the Des Moines MTESC
from Postal Service facilities and noted a 100 percent error rate5 for the height
requirement. Further, PPFG were not properly shrink-wrapped at the top due to the
height of the stacks and the stacks were not properly labeled.

Finally, we found that contractors did not rework the trays to make them compliant but,
instead, scanned them into inventory and placed them on trailers for dispatch. Violating
the height requirement makes it difficult to determine the actual MTE balance on-hand.
This could result in unnecessary MTE purchases and additional transportation costs. In
addition, excessively tall stacks and improper shrink-wrapping increase the risk of
accidents or injuries.

We estimate the Postal Service incurred unnecessary processing costs at the Des
Moines MTESC totaling about $359,000 and $539,000 for FYs 2012 and 2013,
respectively. This was the result of dispatching unprocessed MTE and improperly
preparing PPFG (see Figure 1). The Postal Service could save about $449,000 annually


5
 Any pallet that contains an inaccurate count of MTE due to non-compliance with height requirements for stacking
MTE on pallets.


                                                         4
Internal Controls and Transportation                                                                   NO-AR-14-003
 Associated with the Des Moines, IA,
 Mail Transport Equipment Service Center

in unnecessary processing costs over the next 2 years. See Appendix B for the
monetary impact calculation.

Unnecessary Ordering of Cardboard Containers. We found significant inventory of
cardboard containers (mainly larger cardboard containers of 47 inches and above) at
the Des Moines MTESC. In FY 2013 and during the first 4 months of FY 2014 (October
through January), the average balance on-hand for large cardboard containers was
pallets, or about       cardboard containers (see Figure 2). Although the larger
cardboard was available for order from the Des Moines MTESC, some facilities it
serviced purchased $2 million in new cardboard through the Postal Service's purchasing
system. The Postal Service could have avoided some of the new cardboard purchases
by using the existing cardboard inventory at the Des Moines MTESC.

                    Figure 2. Excess Cardboard at the Des Moines MTESC




                            Excess large cardboard containers stacked in the aisles and
                            near the warehouse dock doors due to lack of storage space.

                           Source: OIG photographs taken January 7, 2014.

The Postal Service incurred unnecessary cardboard purchases totaling about $169,000
and $204,000 for FYs 2013 and 2014,6 respectively. The Postal Service could save
about $187,000 annually in unnecessary new cardboard purchases over the next 2
years. See Appendix B for additional information.

Improper Handling of Shoring Straps

The Postal Service's processing facilities did not always adhere to policy for proper
handling, storage, and maintenance of shoring straps.7 We observed three hampers (or

6
  We used cardboard purchases for FY 2013 and the first the first 4 months of FY 2014 because this is when it
became evident that new cardboard purchases were occurring while inventory levels at the MTESC were excessively
high.
7
  Shoring straps are made of nylon belting with a ratchet mechanism with “E” track fittings on each end of the strap.
Two restraining devices are required every 10 feet in a loaded trailer to secure containers and pallets from
moving/shifting while in transit. Shoring straps are to remain with a trailer and be placed out of the way when not in
use and during unloading.


                                                          5
Internal Controls and Transportation                                                                 NO-AR-14-003
 Associated with the Des Moines, IA,
 Mail Transport Equipment Service Center

gaylord containers8) at the Des Moines MTESC filled with shoring straps processing
facilities sent for inspection and processing. According to Postal Service policy,9 shoring
straps can be repaired by working with the area MTE coordinator to identify appropriate
parts and manufacturer information. Shoring straps are classified as
non-MTE and should not be sent to an MTESC for inspection and processing.10

Improperly Dispatching Over-the-Road (OTR) Containers to the Des Moines MTESC

We found that processing facilities sometimes used OTR containers to transport empty
MTE to the Des Moines MTESC instead of complying with policy and preparing and
sending MTE on pallets. Processing facilities were not adhering to the OTR container
policy,11 which states that only OTR containers needing repair be dispatched to a
MTESC. The Des Moines MTESC is unnecessarily handling OTR containers.12

Improperly Leaving Mail in MTE Sent to the Des Moines MTESC

The Postal Service is not ensuring that processing facilities thoroughly inspect empty
MTE for lost or misplaced mail before dispatching it to the Des Moines MTESC, as
required. We observed that some MTE arriving at the Des Moines MTESC from
processing facilities contained time-sensitive Priority Mail® and First-Class Mail® (see
Figure 4).

               Figure 4. Examples of Found Mail at the Des Moines MTESC




                     First-Class Mail inside cage.           Priority Mail found.

                     Source: OIG photographs taken January 8 and 9, 2014.


8
  Pallet-sized boxes used to ship mail in bulk quantities that are usually constructed of triple wall corrugated
fiberboard that fits on standard pallets.
9
  Container Methods Handbook PO 502, Section 287.4 – Maintenance and Repair of Shorting Straps, dated
September 1992.
10
   The Postal Service incurred costs that could be avoided; however, we did not quantify a monetary impact due to
these costs being immaterial.
11
   OTR Container Usage Standard Operating Procedures, dated August 28, 2009.
12
   The Postal Service incurred costs it could have avoided; however, we did not quantify a monetary impact since the
number of OTR containers involved is minimal.


                                                         6
Internal Controls and Transportation                                                                      NO-AR-14-003
 Associated with the Des Moines, IA,
 Mail Transport Equipment Service Center

This occurred because management did not adequately enforce policies that require
inspection of MTE for mailpieces before dispatching it to the Des Moines MTESC.

When the Des Moines MTESC found lost or misplaced mail in MTE received from
processing facilities, it complied with the SOW by ensuring this mail was picked up or
dispatched daily for further processing. However, by clearing MTE of all mail before it is
sent to the Des Moines MTESC, the Postal Service can avoid late mail delivery. Late or
failed delivery reflects poorly on the Postal Service brand and public image and leaves
the agency open to customer complaints.

Reassessment of Mail Transport Equipment Service Center Transportation
Requirements

Our review of data in the Transportation Information Management Evaluation System
(TIMES)13 and MTESS14 revealed that Des Moines MTESC transportation was not
being maximized. This occurred because extra trips were added to move excess MTE
and some Des Moines MTESC trips were cancelled. We also determined the Western
Area had not regularly reviewed its MTE needs (standing orders)15 and, in some cases,
had not done so since 2011.

Over the past several years the Postal Service has made many changes to both the
MTESC network and its own infrastructure. These changes have impacted operations,
resources, standing orders, distribution of MTE, and MTESC transportation
requirements in the Western Area.

Postal Service policy states that16 managers must periodically review and update
transportation schedules, as necessary. However, we found that the Western Area did
not reassess MTE and transportation requirements to factor in network changes. As a
result, it could be spending excessively on MTE management and transport.

Recommendations

We recommend the vice president, Network Operations, in coordination with the vice
president, Supply Management:

1.     Establish and implement adequate controls over contractor performance and
       ensure there are adequate resources for effective oversight and monitoring of
       contractor operations at the Des Moines Mail Transport Equipment Service Center,


13
   A web-based application that enables dock clerks to collect data on the arrival and departure of mail trucks and
communicate that information to other processing facilities. The application tracks trailer “utilization” data and acts as
the interface and foundation for surface visibility data.
14
   MTESS supports 15 MTESCs. It tracks MTE history and supports processing orders to network distribution centers
(NDC), processing & distribution centers (P&DC), major mailers, and commercial warehouses.
15
   Standing orders are for both internal and external customers with steady, reoccurring requirements. All Postal
Service processing facilities developed MTE standing orders to fill long-term, reoccurring deficiencies.
16
   Postal Operations Manual, Sections 473.5 and 512.122.


                                                            7
Internal Controls and Transportation                                           NO-AR-14-003
 Associated with the Des Moines, IA,
 Mail Transport Equipment Service Center

     including the processing, invoicing, repairing, and handling of mail transport
     equipment.

2.   Ensure the contractor at the Des Moines Mail Transport Equipment Service Center
     provides adequate security and access control to ground and trailer parking areas,
     including access control of inbound and outbound trailers.

We recommend the vice president, Western Area Operations:

3.   Ensure management monitors compliance with established mail transport
     equipment policies and procedures to minimize risk of accidents and injuries to
     personnel handling this equipment; ensure proper dispatching and use of
     over-the-road containers; ensure proper storage, handling, and maintenance of
     shoring straps; and minimize new cardboard purchases by using existing inventory
     at the Mail Transport Equipment Service Center.

4.   Reinforce the requirement that processing facilities thoroughly inspect mail
     transport equipment being sent to the Des Moines Mail Transport Equipment
     Service Center to ensure it contains no mail.

5.   Reassess mail transport equipment standing orders and transportation schedules
     for all processing facilities to ensure they are up-to-date and efficient given the
     operational changes and imbalance of mail transport equipment flow.

Management’s Comments

Management agreed with all of our findings and recommendations, including the
monetary impacts.

In response to recommendation 1, management stated it would create a modified
flexible schedule for the QA specialist to achieve effective oversight and monitoring of
contractor operations at the Des Moines MTESC. The flexible schedule change for the
QA specialist will be completed by May 2, 2014.

In response to recommendation 2, management stated the supplier has provided
security services in accordance with the contract; however, management agreed that
access controls for the facility could be enhanced to further reduce risks. Management
stated they will post highly visible signs warning anyone entering the lot that they are
under video surveillance. Management also stated the Des Moines MTESC supplier
would replace its manned security service with a high-definition, motion-activated video
surveillance system that will be operated 24 hours, 7 days a week. Additionally,
management stated they will physically check the yard twice each operational day to
verify MTESS. The target completion date is July 1, 2014.

In response to recommendation 3, management stated they will reissue standard
operating procedures to reinforce guidelines for stacking and transporting MTE and


                                            8
Internal Controls and Transportation                                               NO-AR-14-003
 Associated with the Des Moines, IA,
 Mail Transport Equipment Service Center

ensure that employees follow them. Management will also require the Des Moines
MTESC QA specialist to notify the Western Area Distribution Office immediately of any
non-compliance. Additionally, districts in the Western Area will be notified not to send
OTR containers to the Des Moines MTESC unless they require repair. Further, the
Postal Service will reissue Container Methods Handbook PO-502, Section 287.4,
Maintenance and Repairs of Shoring Straps, to ensure compliance and all districts will
be required to order excess cardboard from the Des Moines MTESC prior to purchasing
new cardboard. The headquarters manager for MTE will approve all eBuy requests for
cardboard purchases submitted by postal plants. The target completion date is May 2,
2014.

In response to recommendation 4, the Western Area Network Distribution Office will
issue a directive instructing all facilities to inspect MTE for mail prior to sending it to the
Des Moines MTESC. In addition, they will request the QA specialist to follow up until the
issue is corrected. The target completion date is May 2, 2014.

In response to recommendation 5, the Western Area Network Distribution Office will
have the Network Operations analyst from the Hawkeye District work with the Des
Moines Transportation Office to review standing orders for redundancy or low usage of
transportation for optimization. The target completion date is June 27, 2014. See
Appendix C for management’s comments, in their entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendations and
corrective actions should resolve the issues identified in the report.

The OIG considers all the recommendations significant and, therefore, requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the
Postal Service’s follow-up tracking system until the OIG provides written confirmation
that the recommendations can be closed.




                                               9
Internal Controls and Transportation                                           NO-AR-14-003
 Associated with the Des Moines, IA,
 Mail Transport Equipment Service Center



                             Appendix A: Additional Information

Background

The MTESC network is a centrally managed system of 15 contractor-operated service
centers designed to supply pallets, trays, tubs, mailbags, and other MTE to mail
processing facilities and large customers (mailers) requiring trailer loads of MTE
nationwide. The Postal Service transformed the MTESC network in FY 2010,
decreasing the number of centers from 23 to 15. The MTESC network was
re-engineered to optimize its design, minimize surplus and deficit MTESC locations, and
reduce fixed and transportation costs. The MTESC network delivers MTE to users with
dedicated transportation, recovers equipment no longer needed or serviceable, and
processes MTE for inventory or redistribution.

The vice president, Network Operations, through the headquarters manager of MTE,
manages MTESCs and establishes guidelines, enforces policy, and provides
management support and instructions on distribution, inventory warehousing, auditing,
and reporting of MTE. MTESC contracts are managed using contracting officer
representatives at the headquarters MTE branch. Responsibility for the acquisition,
distribution, supply, and transport of MTE between MTESCs lies with headquarters
MTE. Each MTESC is assigned a QA specialist to serve as a technical representative
who will perform audits to ensure contractors comply with contract specifications and
enforce requirements regarding equipment processing, repairs, and condemnation.

The Postal Service spends $65 to $90 million annually on MTE that is used at about
400 processing facilities, 26,700 post offices and by thousands of external customers.
Because the Postal Service processes, transports, and delivers millions of mailpieces
daily, it requires a significant amount of MTE within and among its facilities, customers,
and contractors.

Objective, Scope, and Methodology

Our objective was to assess internal controls and transportation at the Des Moines
MTESC. This is the second in a series of reports on the MTESC network. To address
our objective, we obtained, assessed, and analyzed Postal Service computerized data
on MTE processing and transportation. We also examined relevant Postal Service
policies and procedures and the terms and conditions of the PAE Applied Technologies
contract related to the Des Moines MTESC, and observed and photographed operations
at the Des Moines MTESC and some of the processing facilities it serviced. See
Appendix C for a list of Postal Service facilities and mailers serviced by the Des Moines
MTESC. We also reviewed prior OIG reports and Postal Service documents and spoke
with Postal Service management, staff, and PAE personnel.




                                             10
Internal Controls and Transportation                                                             NO-AR-14-003
 Associated with the Des Moines, IA,
 Mail Transport Equipment Service Center

We examined Postal Service computer-generated data and other records. We did not
audit or comprehensively validate the data; however, we applied alternative audit
procedures, such as examining source documents, making observations, conducting
physical inspections, and talking with the appropriate officials. We also discussed our
observations and conclusions with management officials throughout our audit work,
considered their perspective, and included their comments where appropriate.

Regarding our assessment of transportation, we did not attempt to fully assess MTESC
transportation for the Des Moines MTESC because of the ongoing, changing operating
environment at the Postal Service due to network realignments.

We conducted this compliance audit from October 2013 through April 2014, in
accordance with generally accepted government auditing standards and included such
tests of internal controls, as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. We discussed our
observations and conclusions with management on March 24, 2014, and included their
comments where appropriate.

We assessed the reliability of MTESS, TIMES, Transportation Contracting Support
System (TCSS),17 Enterprise Data Warehouse, eBuy2 purchasing system, and
Contracting Award Management System18 data by reviewing existing information about
the data and the system that produced them. We experienced data limitations with the
MTESS and TIMES data systems; however, we applied compensating steps to
overcome these limitations. We believe the data were sufficiently reliable for the
purposes of this report.




17
   An Oracle web-based application used to manage transportation contracts and related activities. TCSS allows
contracting offices to solicit, award, and administer transportation contracts.
18
   Used by Supply Management to issue contracts and purchase orders to procure supplies, services, and equipment
(including transportation services, excluding highway contract routes).




                                                       11
 Internal Controls and Transportation                                         NO-AR-14-003
  Associated with the Des Moines, IA,
  Mail Transport Equipment Service Center

 Prior Audit Coverage

                                                                           Monetary
                                     Report                                 Impact
        Report Title                Number        Final Report Date      (in millions)
Internal Controls and             NO-AR-14-001       12/20/2013              $3.8
Transportation Associated
With the Springfield, MA,
Mail Transport Equipment
Service Center
Report Results:
Our report found that the Postal Service could improve controls over MTE operations
and transportation at the Springfield MTESC and its associated processing facilities.
Management did not have comprehensive controls over contractor processing,
invoicing, repairing, and handling of MTE and lacked sufficient resources to monitor
contractor performance. We also found that management needs to reassess the
efficiency of MTE-related transportation. We recommended the vice presidents,
Network Operations and Supply Management, establish adequate controls over
contractor performance and ensure there is adequate security. We also recommended
the vice president, Northeast Area, ensure compliance with MTE policies for handling
and transporting MTE. Finally, we recommended management reassess MTE and
transportation requirements to ensure efficiency. Management agreed with our
findings and recommendations.

Mail Transport Equipment        NL-AR-12-011           9/28/2012              $26.7
– Shortages of Pallets,
Tubs, and Trays – Fall
2011 Mailing Season
Report Results:
We confirmed that unprecedented MTE shortages existed at Postal Service facilities
and for mailers during the fall 2011 mailing season. This occurred because
management did not effectively plan to have sufficient quantities on hand or develop a
risk mitigation plan to avoid shortages. In addition, management had not fully
developed and instituted adequate controls for effective MTE management. We
recommended the Postal Service develop processes and procedures for effective
planning of and budgeting for MTE needs for the fall mailing season, implement prior
OIG recommendations over MTE internal controls, and develop processes and
procedures to limit distribution and improve accountability of MTE provided to mailers.
We also recommended management assess and implement industry best practices for
inventory control, considering the cost benefit. Management agreed with our findings
and recommendations.




                                             12
Internal Controls and Transportation                                                                  NO-AR-14-003
 Associated with the Des Moines, IA,
 Mail Transport Equipment Service Center



                             Appendix B: Monetary and Other Impacts

                                              Monetary Impacts

                                                                                           Amount
      Recommendation        Impact Category                                              (in millions)
            3        Questioned Costs19                                                       $1,271,612
            3        Funds Put to Better Use20                                                  1,271,612
      Total                                                                                   $2,543,224

We concluded the Postal Service incurred unnecessary costs of about $359,000 for FY
2012, about $708,000 for FY 2013, and about $204,000 for FY 2014 (see Table 1). It
could avoid about $636,000 in unnecessary costs annually over the next 2 years by
providing adequate oversight, ensuring compliance with policies and procedures, and
using the existing cardboard inventory at the Des Moines MTESC before purchasing
cardboard containers.

     Table 1. Impact Summary of Questioned Costs and Funds Put to Better Use

                              MTE
                             Return
                            Handling                Cardboard
              Fiscal Year    Policy                 Purchases                       Total
                 2012       $359,466                    -                                  $359,466
                 2013       $538,944                  $169,257                              708,201
                 2014           -                     $203,945                              203,945
             Total Questioned Costs                                                      $1,271,612

                 Year 1     $449,205      $186,601                                         $635,806
                 Year 2     $449,205      $186,601                                          635,806
             Total Funds Put to Better Use                                               $1,271,612
             Source: OIG analysis.

Using MTESS data, we obtained the total number of pallets for trays and tubs the
Des Moines MTESC received for processing (36,516 for FY 2012 and 52,580 for
FY 2013). We also obtained the number of pallets for trays and tubs the Des Moines
MTESC received and classified as PPFG (56,881 for FY 2012 and 46,310 for FY 2013).




19
   Unnecessary, unreasonable, unsupported, or an alleged violation of law, regulation, contract, etc. May be
recoverable or unrecoverable. Usually a result of historical events.
20
   Funds that could be used more efficiently by implementing recommended actions.


                                                         13
Internal Controls and Transportation                                                               NO-AR-14-003
 Associated with the Des Moines, IA,
 Mail Transport Equipment Service Center

The following MTE piece counts represent what make up a pallet:

      Managed Mail (MM) trays – 210.
      Extended MM Trays – 96.
      Half-size MM trays – 400.
      Tubs – 84.

We used a 100 percent compliance cap, based on MTE return handling procedures for
facilities, which requires processing facilities to return all excess trays and tubs as
PPFG. Therefore, the monetary impact is equal to the invoiced amount for processed
trays and tubs received ($359,466 for FY 2012 and $538,944 for FY 2013).
See Table 2.

                  Table 2. MTE Return Handling Policy – Questioned Costs

                          Total
                        Pallets of                             Percentage
                        Trays and         Percentage               of                 Dollar Amount for
     Fiscal Year          Tubs             of PPFG             Processed21             Processed MTE
        2012                  93,397             61%                  39%                      $359,466
        2013                  98,890                 47%                   53%                        538,944
 Questioned Costs                                                                                   $898,410
Source: OIG analysis.

We used an average of the invoiced amount for trays and tubs for FYs 2012 and 2013
to estimate the amount of potential savings over future years ($898,205 ÷ 2 =
$449,205). See Table 3.

               Table 3. MTE Return Handling Policy – Funds Put to Better Use



                           Future Year                      Estimated Dollar Amount for
                                                                  Processed MTE
                          Year 1                                               $449,205
                          Year 2                                                449,205
                 Funds Put to Better Use                                       $898,410
                Source: OIG analysis.

We offset some new cardboard purchases by the existing large cardboard inventory at
the Des Moines MTESC to calculate total questioned costs (see Table 4). We
determined questioned costs by multiplying the purchase price of new cardboard

21
  “Processed” as used in Tables 2 and 3 refers to tubs and trays that required processing at the MTESC because
they were not properly prepared by the facilities as required.


                                                       14
Internal Controls and Transportation                                          NO-AR-14-003
 Associated with the Des Moines, IA,
 Mail Transport Equipment Service Center

incurred by facilities by the cardboard inventory at the Des Moines MTESC that could
have been used to avoid new purchased cardboard, only for those months with new
purchases.

For FY 2013, questioned costs were for a total of      cardboard boxes at $169,257
(              = $51,968,                 = $18,969, and                = $98,320).

For the first 4 months of FY 2014 (October through January), questioned costs were
$203,945 (                  ).

                   Table 4. Cardboard Purchases – Questioned Costs

                                                Estimated Dollar Amount for
                      Fiscal Year                  Cardboard Purchases
                         2013                                      $169,257
                         2014                                       203,945
              Total Questioned Costs                               $373,202
             Source: OIG analysis.

We used an average of the questioned cardboard purchases for FYs 2013 and 2014 to
estimate the amount of potential savings over future years ($373,202 ÷ 2 = $186,601).
See Table 5.

               Table 5. Cardboard Purchases – Funds Put to Better Use

                                                Estimated Dollar Amount for
                     Future Year                   Cardboard Purchased
                       Year 1                                      $186,601
                       Year 2                                       186,601
              Funds Put to Better Use                              $373,202
             Source: OIG analysis.




                                           15
Internal Controls and Transportation                                                                    NO-AR-14-003
 Associated with the Des Moines, IA,
 Mail Transport Equipment Service Center



                                                 Other Impacts

            Recommendation                       Impact Category                              Amount
                 2, 3                    Physical Safety and Security22                            $0
                  4                      Goodwill/Branding23                                       $0

Lack of compliance with proper stacking configurations leaves the agency open to the
risk of accidents or injuries to personnel handling MTE.

Undelivered or late mail reflects poorly on the Postal Service's brand and public image
and leaves the agency open to customer complaints.




22
   Physical operations assets (for example, plant, computer equipment, or vehicles) that are unsafe or at risk of loss
because of inadequate physical protection or safety practices. This category also includes the safety and security of
employees.
23
   An actual or potential event or problem that could harm the reputation of the Postal Service.


                                                          16
Internal Controls and Transportation                                       NO-AR-14-003
 Associated with the Des Moines, IA,
 Mail Transport Equipment Service Center


  Appendix C: Des Moines Mail Transport Equipment Service Center Processing
                             Facilities and Mailers

             Processing Facility or Mailer                  City & State

           Action Mailing                         Liberty, MO
           Alaniz Metro Group                     Mount Pleasant, IA
           American Spirit Graphics               Des Moines, IA
           Communications Data Services           Wilton, IA
           (CDS) Wilton
           CDS Tipton                             Tipton, IA
           Cedar Rapids P&DC                      Cedar Rapids, IA
           CITI                                   Urbandale, IA
           Colorfx Marketing                      Des Moines, IA
           Des Moines NDC                         Des Moines, IA
           Des Moines P&DC                        Des Moines, IA
           Dalsey, Hillblom and Lynn (DHL)        St. Louis, MO
           Global Mail
           Diamond Marketing Solutions            Council Bluffs, IA
           Data-Sys-Tance Mailing Services        Kansas City, MO
           Emdeon                                 Bridgeton, MO
           Epsilon                                Earth City, MO
           FEDEX Smart Post                       Earth City, MO
           FEDEX Smart Post                       Olathe, KS
           First Data Resources                   Omaha, NE
           First Data Resources                   Omaha, NE
           Fiserv                                 Hazelwood, MO
           Fisher Group                           Hiawatha, IA
           Fort Dodge P&DC                        Fort Dodge, IA
           Henry Wurst, Inc.                      Kansas City, MO
           Hewlett-Packard                        Des Moines, IA
           Kansas City Bindery & Mailing          Bonner Springs, KS
           Kansas City P&DC                       Kansas City, MO




                                             17
Internal Controls and Transportation                                     NO-AR-14-003
 Associated with the Des Moines, IA,
 Mail Transport Equipment Service Center



             Processing Facility or Mailer                City & State
           Mail Services                          Urbandale, IA
           Mid-Missouri Processing &              Columbia, MO
           Distribution Facility
           Omaha P&DC                             Omaha, NE
           Parcelite                              Kansas City, MO
           Pitney-Bowes Presort Services          Urbandale, IA
           Pitney-Bowes Presort Services          Kansas City, MO
           Pitney-Bowes Presort Services          Omaha, NE
           Principal Financial                    Urbandale, IA
           Quad Graphics                          Waukee, IA
           Rees Associates                        Des Moines, IA
           RR Donnelley                           Liberty, MO
           Sioux Falls P&DC                       Sioux Fall, SD
           Southwest Publishing                   Topeka, KS
           Springfield P&DC                       Springfield, MO
           St. Louis P&DC                         St. Louis, MO
           St. Louis Priority Annex               Hazelwood, MO
           St. Louis NDC                          Hazelwood, MO
           Straham Printing and Mailing           Kansas City, MO
           Transcentra                            Des Moines, IA
           United Financial Information           Urbandale, IA
           Services
        Source: OIG analysis.




                                             18
Internal Controls and Transportation                                                         NO-AR-14-003
 Associated with the Des Moines, IA,
 Mail Transport Equipment Service Center



   Appendix D: Mail Transport Equipment Service Center Distribution Flowchart

The MTE network consists of the MTESC, Postal Service processing facilities, and
business mailers. Large mailers and processing facilities order their MTE through MTE
Ordering System (MTEOR), the MTE order fulfillment system. MTE is shipped via
dedicated transportation. Smaller mailers may order MTE from their local Postal Service
facilities.




Source: OIG analysis.
Note: Processing facilities also provide excess MTE to local mailers and other facilities.




                                                           19
Internal Controls and Transportation                           NO-AR-14-003
 Associated with the Des Moines, IA,
 Mail Transport Equipment Service Center


                           Appendix E: Management’s Comments




                                           20
Internal Controls and Transportation            NO-AR-14-003
 Associated with the Des Moines, IA,
 Mail Transport Equipment Service Center




                                           21
Internal Controls and Transportation            NO-AR-14-003
 Associated with the Des Moines, IA,
 Mail Transport Equipment Service Center




                                           22
Internal Controls and Transportation            NO-AR-14-003
 Associated with the Des Moines, IA,
 Mail Transport Equipment Service Center




                                           23
Internal Controls and Transportation            NO-AR-14-003
 Associated with the Des Moines, IA,
 Mail Transport Equipment Service Center




                                           24
